                                                                  OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 1 of 4) Version 4.0a
              Reporting Entity: Department of Transportation - OIG
            Month Ending Date: 05/31/2010

                                                          Recovery Act Funds Used on Recovery Act Activity
           Agency / Bureau          Recovery Act TAFS       Award Type      US Indicator      Total Obligations    Total Gross Outlays     Direct or     Ordering TAFS
                                                                                                                                         Reimbursable
No.
      Department of              (69-0131 2009 \ 2013)         Other           Y - US            $3,000,549           $2,821,844             Direct          N/A
      Transportation - OIG       Transportation - OIG -
  1                              Recovery Act
      Department of              (69-0131 2009 \ 2013)     Contract and        Y - US            $325,000                  $0                Direct          N/A
      Transportation - OIG       Transportation - OIG -      Orders
 2                               Recovery Act
 3
 4
 5
 6
 7
 8
 9
10

                                               Non-Recovery Act Funds Used on Recovery Act Activity
           Agency / Bureau        FY 2009 Non-Recovery     Total FY 2009    Total FY 2009   FY 2010 Non-Recovery     Total FY 2010       Total FY 2010
                                        Act TAFS            Obligations     Gross Outlays         Act TAFS            Obligations        Gross Outlays
No.                                                                                                                                                                      .
   Department of Transportation - (69-0130 2009)               $1,569,106      $1,569,106 (69-0130 2010)                   $1,466,284       $1,219,131
 1 OIG                            Transportation - OIG                                    Transportation - OIG
 2
 3
 4
 5
 6
 7
 8
 9
10




                                                                                                                                         DOT OIG Monthly Report Num 13 03-31-10
                                                                           OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 2 of 4) Version 4.0a
      Reporting OIG: Department of Transportation - OIG
  Month Ending Date: 05/31/2010

                         FTE Working on Recovery
                                                                                                                                 Testimonies:
     Fiscal Year           2009                2010                 Cumulative
      Newly Hired FTE
                           0.77                 8.86                   9.63                                                    Provided (monthly):     0
         (cumulative):
        FTE Funded by
   Recovery Act Funds      1.54                 23.85                 25.39                                                 Provided (cumulative):     5
         (cumulative):
    FTE Not Funded by
   Recovery Act Funds     15.20                 9.65                  24.85
         (cumulative):

                                                                                                                     Audits / Inspections / Evaluations /
           Complaints                Whistleblower Reprisal Allegations                   Investigations                                                            Training / Outreach
                                                                                                                                   Reviews
          Monthly Data                         Monthly Data                               Monthly Data                          Monthly Data                           Monthly Data
                                                                                                                                                                      Training Sessions
            Received:      8                            Received:                     Opened (this month):      2            Initiated (this month):   0                                    8
                                                                                                                                                                             Provided:
                                                                                 Active (as of the end of the           In Process (as of the end of
                                                        Accepted:                                               27                                   13            Individuals Trained:    750
                                                                                                     month):                            the month):

                                                                                                                        Completed Final Published                    Hours of Training
                                                                                          Pending Decision:     6                                      0                                   878
                                                                                                                                 Work Products:                             Provided:

                                                                                                                         Priority Interim Published                 Outreach Sessions
                                                                                     Closed without Action:     3                                      0                                    0
                                                                                                                                    Work Products:                        Conducted:

                                                                                                                                Unpublished Work
                                                                                  Accepted for Prosecution:     1                                      0
                                                                                                                                       Products*:
                                                                                      Prosecution Declined:   0
                                                                                    Referred for Alternative
                                                                                                              0
                                                                                                 Resolution:
 Cumulative Data Since 2/17/2009      Cumulative Data Since 2/17/2009            Cumulative Data Since 2/17/2009     Cumulative Data Since 2/17/2009         Cumulative Data Since 2/17/2009

                                                                                                                        Completed Final Published                     Training Sessions
            Received:     237                           Received:      2             Closed without Action:     8                                      8                                   210
                                                                                                                                 Work Products:                              Provided:

                                                                                                                         Priority Interim Published
                                                        Accepted:      2          Accepted for Prosecution:     26                                     0           Individuals Trained:   15,372
                                                                                                                                    Work Products:

                                                                                                                                Unpublished Work                     Hours of Training
                                                                                      Prosecution Declined:     2                                      0                                  15,630
                                                                                                                                        Products:                           Provided:
                                                                                    Referred for Alternative                                                        Outreach Sessions
                                                                                                                1               Cumulative Total:      8                                   146
                                                                                                 Resolution:                                                              Conducted:
                                                                                         Cumulative Total:      37


                                                                                                                                                       DOT OIG Monthly Report Num 13 03-31-10
                                                    OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 3 of 4) Version 4.0a
      Reporting OIG: Department of Transportation - OIG
  Month Ending Date: 05/31/2010

       No.                            OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                     On May 19 , the Inspector General spoke at the 18th Biennial Forum of Government Auditors in San Antonio, TX,
                                 th

        1            on the OIG community's strategy for promoting accountability.
       No.

                     On June 3, the Deputy Inspector General will present the keynote address, "Promoting Transparency and
        1            Accountability in DOT's Implementation of ARRA" at the Mid Atlantic Intergovernmental Audit Forum in Ocean
                     City, MD.

        2




                                                                                                          DOT OIG Monthly Report Num 13 03-31-10
                                                                               OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 4 of 4) Version 4.0a
  Reporting OIG: Department of Transportation - OIG
   Month Ending 05/31/2010
           Date:


                                                                                        TRAINING ACTIVITIES
                                                                                                                                                     Hours of
                                                                                           Training                      Length of                   Training                  Presentation     Average
                                                                                                           Date of                     Number of                   Cost of
     No.               Type of Training       Target Audience       Title of Training    Location (City,                  Training                  Provided                    with Other     Evaluation
                                                                                                           Training                   Participants                 Training
                                                                                             State)                       (hours)                    (length x                     OIGs          Rating
                                                                                                                                                   participants)
                                                                Fraud Prevention/
       1         Fraud Prevention/Awareness   State                                     Newington, CT                           1.5                        172.5 N/A                          N/A
                                                                Awareness Briefing                            5/3/2010                        115
                                                                Fraud Prevention/
       2         Fraud Prevention/Awareness   State                                     Newington, CT                           1.5                          210 N/A                          N/A
                                                                Awareness Briefing                            5/3/2010                        140
                                                                Fraud Prevention/
       3         Fraud Prevention/Awareness   Mixed                                     Boston, MA                                1                           75 N/A                          N/A
                                                                Awareness Briefing                            5/6/2010                         75
                                                                Fraud Prevention/
       4         Fraud Prevention/Awareness   State                                     Kansas City MO                            1                           30 N/A                          N/A
                                                                Awareness Briefing                          5/19/2010                          30
                                                                FHWA Fraud Awareness
       5         Fraud Prevention/Awareness   State                                     Columbus OH                               1                          200 N/A                          N/A
                                                                Briefing                                    5/26/2010                         200
                                                                FHWA Fraud Awareness
       6         Fraud Prevention/Awareness   State                                     Columbus OH                               1                          150 N/A                          N/A
                                                                Briefing                                    5/27/2010                         150
                                                                Fraud Prevention/
       7         Fraud Prevention/Awareness   State                                     Little Rock, AR                           1                           25 N/A                          N/A
                                                                Awareness Briefing                          5/11/2010                          25
                                                                Fraud Prevention/
       8         Fraud Prevention/Awareness   Mixed                                     Lakehead, CA                              1                           15 N/A                          N/A
                                                                Awareness Briefing                          5/27/2010                          15
       9
      10
      11
      12
                                                                                                                          TOTAL               750          877.5


                                                OUTREACH ACTIVITIES
                                                 Number of
                                               Organizations                               Outreach
                    Organization to which                                                                   Date of
     No.                                       Represented at Description of Outreach    Location (City,
                     Outreach Provided                                                                     Outreach
                                                 Outreach                                    State)
                                                  Session
       1
       2
       3
       4




                                                                                                                                                                       DOT OIG Monthly Report Num 13 03-31-10
